November 25, 2020
david.morrison@goldbergkohn.com
direct phone: 312.201.3972
direct fax: 312.863.7472
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Chad F. Wolf, et al. v. Cook County, Illinois, et al., No. 20-450

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 7, 2020, and
the response is currently due on December 9, 2020.
Pursuant to Rule 30.4 of the Rules of this Court, Respondents Cook County, Illinois and Illinois
Coalition for Immigrant and Refugee Rights (“ICIRR”) respectfully request a 30-day extension of
time, to and including January 9, 2020, within which to file their response. This is Respondents’
second request for an extension.
Respondents request an additional 30 days to give both Cook County and ICIRR sufficient time to
deliberate, review the petition, and draft their response given the recent presidential election and
its impact on this litigation. Specifically, the incoming presidential administration has publicly
stated that it will reverse the Public Charge Rule at issue in this litigation within its first 100 days.
See The Biden Plan for Securing Our Values as a Nation of Immigrants,
joebiden.com/immigration/ (last visited Nov. 24, 2020). Now that the administrator of the General
Services Administration has formally designated the President-elect as the apparent winner of the
presidential election,1 Respondents require additional time to consider the effects that this
significant development will have on their response to the petition. Respondent Cook County’s
deliberation process will require, for example, further consultation with its agencies and officials,
as well as several layers of review. Respondent ICIRR also requires additional time to consult
with its numerous member organizations.

1 See Michael D. Shear, et

al., Trump Administration Approves Start of Formal Transition to Biden,
N.Y. TIMES (Nov. 23, 2020), nytimes.com/2020/11/23/us/politics/trump-transition-biden.html
(last visited Nov. 24, 2020).
# .vne 11/24/20 3:17 PM kletnew.dot

.

Honorable Scott Harris
November 25, 2020
Page 2
Moreover, subsequent to this Court granting Respondents’ prior extension request, the district
court granted ICIRR and Cook County’s summary judgment motion and entered final judgment
vacating the Final Rule pursuant to Federal Rule of Civil Procedure 54(b). Respondents request
additional time to consider and address the effect of that final judgment on the pending petition
related to the previously-issued preliminary injunction.
In addition to the need for deliberation and further review, the undersigned counsel have a variety
of obligations before various courts that would make it difficult to prepare responses to the petition
by the current deadline. Lead counsel for Cook County, David Morrison, recently completed a
five-day arbitration and has a two-day trial scheduled on December 17-18, 2020 in Sustainable
Income, LLC v. Increase Beverage International, Inc. et al. No. 19-FJ-2 (Circuit Court of
Manitowoc County, Wisconsin). Lead counsel for ICIRR, Tacy Flint, is responsible for filing a
brief at the Illinois Supreme Court in Palos Community Hospital v. Humana Insurance Co., No.
126008, due December 23, 2020. In addition, counsel for Respondent ICIRR require additional
time to respond to the petition because they are in the midst of discovery on ICIRR’s pending
equal protection claim. ICIRR has several upcoming deadlines related to that claim, including a
joint status report and an upcoming status conference in the district court on December 1, 2020.
Counsel for petitioners have indicated that they oppose the further extension of time for the reasons
provided in their November 20, 2020 response to a similar request in Department of Homeland
Security v. New York, No. 20-449. But consideration of the petition at a later time will not
prejudice petitioners, as the Court already has stayed the preliminary injunction that is the subject
of petitioners’ appeal. See Wolf v. Cook County, 140 S. Ct. 681, 681 (2020). Moreover, the
Seventh Circuit has stayed the district court’s final judgment in this matter pending resolution of
petitioners’ appeal, as well as suspended briefing on that appeal pending resolution of the petition
before this Court. See Cook County v. Wolf, No. 20-3150 (7th Cir. Nov. 19, 2020). The requested
extension will not affect either stay.
Thank you for your consideration of this request.

Honorable Scott Harris
November 25, 2020
Page 3
Respectfully submitted,

/s/ David E. Morrison
David E. Morrison*
Counsel for Respondent
Cook County, Illinois
/s/ Tacy F. Flint
Tacy F. Flint*
Counsel for Respondent
Illinois Coalition for Immigrant and Refugee Rights, Inc.
*Counsel of Record
cc:

Jeffrey B. Wall, SupremeCtBriefs@usdoj.gov
Sopan Joshi, Sopan.Joshi@usdoj.gov
Benjamin Snyder, Benjamin.Snyder@usdoj.gov

